SEC’s Records Management
Practices




                           September 30, 2012
                               Report No. 505
SEC’s Records Management Practices             September 30, 2012
Report No. 505

                                     Page ii
SEC’s Records Management Practices

                                Executive Summary
Background. SEC’s records include confidential treatment requests files,
correspondence, investigation records, matters under inquiry records, transcripts,
working papers, consumer complaint files, Congressional and Chairman files,
administrative proceedings files, self-regulatory files, bankruptcy files, effective
orders, etc.

On November 28, 2011, a presidential memorandum was issued on managing
government records. This memorandum emphasized the importance of having
well-managed records management program that includes reducing redundant
efforts, minimizing costs and sharing institutional knowledge within and across
organizations. Further, the memorandum states that “proper records
management is the backbone of open Government.”1

The Office of Records Management Services (ORMS) is responsible for
coordinating, overseeing and implementing the U.S. Securities and Exchange
Commission’s (SEC or Commission) records management program at its
Headquarters, Operations Center, and 11 Regional Office locations.2 ORMS and
the Office of Security Services (OSS) are direct reporting units to the Office of
Support Operations (OSO). OSS has oversight of the SEC’s vital records
program.

ORMS oversees the SEC’s overall records management program through points-
of-contacts (POC) in most offices and divisions. The POCs provide oversight of
their individual records management program and practices.3 ORMS’
responsibilities include “providing reference services for Commission staffers,
other Federal, state and local entities and members of the public that are
essential in assisting the SEC in achieving its mission.”4 Additionally, the office
“coordinates with the Commission’s Office of Investor Education and Advocacy
and Public Reference Room for records reference requests from the public.”5
Further, ORMS assists the Office of Freedom of Information Act (FOIA) Services,
in responding to requests for nonpublic records under FOIA. SEC staff can find
answers to questions on “How to Request Records” and “Frequently Asked
Questions About Records” on the SEC Intranet.

1
  Presidential Memorandum – Managing Government Records, (Nov. 28, 2011), p.1.
2
  SEC’s headquarters and regional offices are comprised of 36 offices and divisions that are headed by
Directors. SEC also has the Chairman’s office and 4 Commissioners’ offices.
3
  POCs are mainly comprised of administrative officers and business managers. Other serving in this role
include assistant directors and personnel with various other titles.
4
  ORMS, Standard Operating Policy 2.1, Requestors, p.1.
5
  Id.
SEC’s Records Management Practices                                                  September 30, 2012
Report No. 505

                                                Page iii
Objectives. The objectives of our audit were to examine whether ORMS:

      established a viable records management program that ensures
       permanent SEC records are appropriately maintained and
       preserved in accordance with applicable Federal statutes and
       regulations; and
      adhered to applicable Federal statutes and regulations regarding
       the retention, disposal, transfer, and recovery of SEC records.

Where appropriate OIG identified best practices.

Results. The SEC does not have an active staff assistance program and
periodic agency-wide staff assistance visits were not conducted by ORMS or its
predecessors. Although ORMS provided assistance to SEC offices and divisions
to identify their records and has scheduled records for disposition, it has not
conducted staff assistance visits of all 36 SEC offices and divisions. Therefore,
confusion exists among POCs regarding their records management
responsibilities.

In addition, our audit revealed that although ORMS readily answered agency
staff questions about records matters, provided basic records management
training during SEC’s new employee orientation, and provided training to staff in
the Regional Offices, the office did not provide records management training to
staff agency-wide. OIG determined that this has caused confusion among
employees.

Our review of a sample number of records requests found that some staff in
ORMS did not follow the office’s standard operating policy in processing requests
and several requests were not completed in ORMS’ goal of seven business days
goal for non-urgent records requests.

We also identified offices that did not have records retention schedules and other
offices whose records retention schedules were outdated. Additionally, we found
offices ORMS had not met with to determine if they had records.

OIG determined that many offices and divisions do not have proper records
management procedures and ensure that active records are properly and
economically maintained, and used on a regular basis. Further, we found that
inactive records are not regularly disposed.

Several POCs informed OIG they do not know when their records should be
disposed of and they do not dispose of records annually. Additionally, until
recently, ORMS had not reviewed the contents of 256 boxes their contractor
identified in a report that was issued to ORMS in November 2010. ORMS


SEC’s Records Management Practices                               September 30, 2012
Report No. 505

                                     Page iv
informed OIG that it has now reviewed 98 of the boxes and they are coordinating
with the Federal Records Center (FRC) to review the remaining boxes.

Our audit also found that ORMS has not performed a timely review of
Commission records that are eligible for destruction. Thus, a backlog exists that
represents approximately 10 years of records that are eligible for destruction, but
have not been destroyed. Although ORMS maintains hard copies of disposal
forms the FRC provides for their review, approval, and destruction for records,
the office does not maintain a list of the Commission records the FRC has
identified as eligible for destruction.

Further, we determined that some offices and divisions do not have records
management POCs. We also found that SEC’s records management directives
do not require offices or divisions to have records management POCs. As a
result, some SEC employees do not understand their records management
responsibilities. Also, the Federal regulations and SEC policies covering records
management are not being followed properly.

OSS has oversight of the SEC’s vital records program and is working with ORMS
to evaluate the program. Thus, OSS has not defined the SEC’s vital records and
did not review or update the agency’s vital records at least annually. As a result,
SEC’s listing of vital records is incomplete and outdated. Further, the SEC has
not definitively established how it will protect and retrieve vital records in an
emergency situation. Due to changes in responsibilities for vital records
management, confusion exists regarding the SEC’s compliance with the National
Archives and Records Administration’s (NARA) guidance on vital records.
Consequently, the SEC did not comply with certain vital records management
regulations.

Lastly, our audit found that the SEC’s records management administrative
regulations and vital records handbook are outdated. The administrative
regulations contain terminology, processes and forms that are no longer current
and the Vital Records Handbook includes a form the SEC has never used.

Summary of Recommendations. This report contains 12 recommendations to
aid in ensuring SEC’s records are properly managed and to strengthen the
SEC’s records management program. Based on the results of our audit, we
recommended that ORMS periodically conduct agency-wide staff assistance
visits of the SEC’s records management programs in accordance with SECR 7-1,
Securities and Exchange Commission’s Records Management Program. ORMS
should also develop a records management training program and offer training
sessions on records management to all SEC employees. We also recommended
that ORMS develop more robust internal controls to provide oversight to its
employees in processing records requests. Further, we recommended that
ORMS work with offices and divisions agency-wide to ensure they have current

SEC’s Records Management Practices                                September 30, 2012
Report No. 505

                                      Page v
and complete records retention schedules. ORMS should also establish records
management procedures that enable SEC offices and divisions to properly
manage their records in accordance with applicable Federal regulations and the
SEC’s administrative regulations.

Additionally, ORMS should develop a definitive plan and milestones to review the
backlog of records that are maintained at the FRC and determine how the
records will be treated. We also recommended that ORMS develop an action
plan to address the 10-year backlog of records the FRC has identified as being
eligible for destruction. ORMS should also require all offices and divisions to
designate a POC for records management matters, then periodically verify the
listing. We further recommended that OSS, in coordination with ORMS, develop
a vital records program that includes processes and procedures, and establish
and maintain the SEC’s vital records in accordance with applicable Federal
regulations and NARA’s guidance on vital records management.

We also recommended ORMS update its administrative regulations covering
records management and train SEC employees on the new regulations. Lastly,
OSS and ORMS should coordinate reviewing SEC’s Vital Records Handbook
and determine if it will be revised or rescinded.

Management’s Response to the Report’s Recommendations. OIG provided
OSO with the formal draft report on September 21, 2012. OSO concurred with
all 12 of the report’s recommendations. OIG considers the report’s
recommendations resolved. However, each recommendation will remain open
until documentation is provided to us that supports the recommendation has
been fully implemented.

OSO’s responses to each recommendation and OIG’s analysis of the responses
are presented after each recommendation in the body of this report. OIG’s
response to OSO’s overall comments to the report is included in Appendix VIII.




SEC’s Records Management Practices                             September 30, 2012
Report No. 505

                                     Page vi
TABLE OF CONTENTS
Executive Summary ....................................................................................................iii

Table of Contents ......................................................................................................vii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 4

Findings and Recommendations ......................................................................... 5
     Finding 1: Agency-Wide Staff Assistance Visits of SEC Records
     Management Programs Were Not Periodically Conducted ................................ 5
                  Recommendation 1 ....................................................................... 7

         Finding 2: Records Management Training Was Not Provided to All SEC
         Staff on Their Responsibilities ............................................................................ 7
                       Recommendation 2 ....................................................................... 9

         Finding 3: Some Records Requests Processing Did Not Align with ORMS’
         Established Business Goals and Records Requests Were Not Completed
         in Accordance with the SOP............................................................................... 9
                      Recommendation 3..................................................................... 12

         Finding 4: Some SEC Offices or Divisions Do Not Have Records
         Retention Schedules and Others Should Be Updated ..................................... 13
                      Recommendation 4..................................................................... 15

         Finding 5: Some SEC Offices and Divisions Did Not Review Their Records
         Retention Schedules and Dispose of Records in Accordance with Their
         Schedules ........................................................................................................ 16
                       Recommendation 5..................................................................... 18
                       Recommendation 6..................................................................... 18
                       Recommendation 7..................................................................... 19

         Finding 6: The Backlog of Records Being Maintained at FRC Were Not
         Reviewed ......................................................................................................... 19
                       Recommendation 8..................................................................... 20

         Finding 7: Records Management Points-of-Contact Have Not Been
         Identified for All SEC Offices and Divisions ...................................................... 21
                        Recommendation 9..................................................................... 23



SEC’s Records Management Practices                                                           September 30, 2012
Report No. 505

                                                    Page vii
         Finding 8: SEC’s Vital Records Management Program Needs
         Improvement .................................................................................................... 23
                      Recommendation 10................................................................... 28
                      Recommendation 11................................................................... 28

         Finding 9: SEC’s Records Management Administrative Regulations,
         Retention Schedule, and Handbook Are Outdated ......................................... 29
                      Recommendation 12................................................................... 31

Appendices
    Appendix I: Federal Agencies Records Management Responsibilities. ........... 32
    Appendix II: Abbreviations................................................................................ 35
    Appendix III: Scope and Methodology .............................................................. 36
    Appendix IV: Criteria ........................................................................................ 39
    Appendix V: List of Recommendations ............................................................ 41
    Appendix VI: Definitions .................................................................................. 44
    Appendix VII: Management Comments ............................................................ 46
    Appendix VIII: OIG’s Response to Management’s Comments ......................... 50

Tables
     Table 1: ORMS Approved Action Codes for Records Requests. ..................... 11
     Table 2: Survey Results of SEC Offices and Divisions Vital Records
     Listings ............................................................................................................. 24
     Table 3: Survey Results of SEC Offices and Divisions Vital Records
     Listings as Compared to the Vital Records in 2010 COOP Plan and the
     Draft 2011 Listing. ............................................................................................ 26




SEC’s Records Management Practices                                                           September 30, 2012
Report No. 505

                                                     Page viii
                    Background and Objectives

Background
Agency records management programs must have effective controls over the
creation, maintenance, and use of records in the conduct of current business.
Further, agencies must cooperate with the Archivist and the Administrator of
General Services Administration in applying standards, procedures, and
techniques that are designed to improve the management of records, promote
the maintenance and security of records deemed appropriate for preservation,
and facilitate the segregation and destruction of records of temporary value.6

On November 28, 2011, a presidential memorandum was issued on managing
government records. The memorandum emphasizes the importance of having
well-managed records management program such as reducing redundant efforts,
minimizing costs and sharing institutional knowledge within and across
organizations. Further, the memorandum states that “proper records
management is the backbone of open Government.”7

The Office of Records Management Services (ORMS) and the Office of Security
Services (OSS) are direct reporting units to the Office of Support Operations
(OSO). Previously, ORMS was part of the Office of FOIA, Records Management
and Security. OSS has oversight of the SEC’s vital records program.

Since May 2007, ORMS has been led by an Archivist who is responsible for
coordinating, overseeing and implementing the U.S. Securities and Exchange
Commission’s (SEC or Commission) records management program at its
Headquarters, Operations Center, and 11 Regional Office locations.8 The office
is comprised of two branches and has a records officer who provides assistance
to ORMS’ Archivist. Over the past few years ORMS has taken the following
measures to improve the Commission’s records management program:

       Developed relationships with records management points-of-
        contact (POC) and/or employees in SEC offices and divisions;
       Adopted standard operating policy (SOP);
       Improved its records request completion time;




6
  36 C.F.R. § 1220.30.
7
  Presidential Memorandum – Managing Government Records, (Nov. 28, 2011), p.1.
8
  SEC’s headquarters and regional offices are comprised of 36 offices and divisions that are headed by
Directors. SEC also has the Chairman’s office and 4 Commissioners’ offices.
SEC’s Records Management Practices                                                   September 30, 2012
Report No. 505

                                                 Page 1
       Annually sends staff to National Archives and Records
        Administration (NARA) records management training, as well as
        other records management training;
       Provided basic records management training during SEC’s new
        employee orientation; and
       Since January 2012, ORMS has conducted assessments of five
        Regional Offices’ records management programs and provided
        training to the staff.

SEC’s records include confidential treatment requests files, correspondence,
investigation records, matters under inquiry records, transcripts, working papers,
consumer complaint files, Congressional and Chairman files, administrative
proceedings files, self-regulatory files, bankruptcy files, effective orders, etc.

Though ORMS oversees the SEC’s overall records management program, most
offices and divisions have POCs who provide oversight of their individual records
management program and practices.9 ORMS works with POCs to develop and
obtain NARA’s approval of records retention schedules for records they either
create or receive from internal and external sources. With few exceptions the
offices and divisions have records retention schedules that ORMS has reviewed
and NARA has approved. ORMS maintains the Commission’s overall records
retention schedule that identifies each office’s and division’s individual records
retention schedules.

ORMS’ other responsibilities include “providing reference services for
Commission staffers, other Federal, state and local entities and members of the
public that are essential in assisting the SEC in achieving its mission.”10
Additionally, the office “coordinates with the Commission’s Office of Investor
Education and Advocacy and Public Reference Room for records reference
requests from the public.”11 Further, ORMS assists the Office of Freedom of
Information Act (FOIA) Services, in responding to requests for nonpublic records
under FOIA. SEC staff can find answers to questions on “How to Request
Records” and “Frequently Asked Questions About Records” on the SEC Intranet,
the Commission’s internal website.

In September 2010, ORMS hired a contractor to assess its requirements for an
automated Records Management System. As part of this process the contractor
conducted an assessment of the SEC’s overall records management program
and identified areas of improvement. In November 2010, the contractor issued
the office a report that among other things, recommended ORMS establish
working groups or have meetings with record management POCs to enable the

9
  POCs are mainly comprised of administrative officers and business managers. Others serving in this role
include assistant directors and personnel with various other titles.
10
   ORMS, Standard Operating Policy 2.1, Requestors, p.1.
11
   Id.
SEC’s Records Management Practices                                                  September 30, 2012
Report No. 505

                                                Page 2
SEC to deliver timely and current records management guidance to its offices
and divisions. Further, the report recommended ORMS provide training to SEC
staff and develop a communication plan that would “provide a consistent means
of information-sharing and ensure that all offices and staff members are receiving
current direction on records management issues.” Additionally, the report
recommended ORMS develop “a 3 to 5 year records management strategic and
program operation plan.” Further, the report recommended ORMS “update its
records management policies and directives.”12

National Archives and Records Administration. NARA defines records as “all
books, papers, maps, photographs, machine readable materials, or other
documentary materials, regardless of physical form or characteristics, made or
received by an agency of the United States government under Federal law or in
connection with the transaction of public business and preserved or appropriate
for preservation by that agency or its legitimate successor as evidence of the
organization, functions, policies, decisions, procedures, operations, or other
activities of the government or because of the informational value of data in
them.”13

From the Federal government’s perspective, records management is the
“planning, controlling, directing, organizing, training, promoting, and other
managerial activities involved in creating, maintaining, using and disposing of
records, to achieve adequate and proper documentation of the policies and
transactions of the government, and effective and economical management of
the agency’s operations.”14 The main tool to manage the disposition of records is
records retention schedules.

Scheduled records represent Federal records whose final disposition has been
approved by NARA. Scheduled records are identified in a records retention
schedule and include both permanent and temporary records.15 Unscheduled
records represent Federal records whose final disposition have not been
approved by NARA, and are not based on the Standard Form (SF) 115, Request
for Records Disposition Authority. NARA requires that unscheduled records
must be treated as permanent records until it approves their final disposition.

NARA’s 2010 and 2011 Records Management Self-Assessment reports16 on the
Federal government’s records management programs found the SEC’s records
management program scored a 38 in 2010 and a 93 in 2011. ORMS stated that


12
   T-White Parker Strategy & Management Consulting, SEC Records Management Policies and Business
Process Assessment, (Nov. 2010), pp. 23-25.
13
   44 U.S.C. § 3301.
14
   44 U.S.C. § 2901(2).
15
   Not all records are destroyed.
16
   The self-assessment reports scored federal agencies on their compliance with federal statue, including
NARA guidance, on records management.
SEC’s Records Management Practices                                                   September 30, 2012
Report No. 505

                                                 Page 3
the SEC was considered a high risk agency in 2010, but is now considered a low
risk agency.

OIG Survey. In December 2011, we administered a survey to designated POCs
in offices and divisions regarding their records management program,
coordination with ORMS, training, etc. The purpose of the survey was to obtain
an understanding of the offices and divisions records management practices and
procedures. The overall response rate to the survey was over 60 percent.

Objectives. The objectives of our audit were to examine whether ORMS:

      established a viable records management program that ensures
       permanent SEC records are appropriately maintained and
       preserved in accordance with applicable Federal statutes and
       regulations; and
      adhered to applicable Federal statutes and regulations regarding
       the retention, disposal, transfer, and recovery of SEC records.

Where appropriate OIG also identified best practices.

Specific Federal agencies records management responsibilities are described in
Appendix I of this report. Definitions for “records” terminology are included in
Appendix VI of this report.




SEC’s Records Management Practices                              September 30, 2012
Report No. 505

                                     Page 4
            Findings and Recommendations


Finding 1: Agency-Wide Staff Assistance Visits of
SEC Records Management Programs Were Not
Periodically Conducted
       ORMS and its predecessors did not periodically conduct
       agency-wide staff assistance visits of SEC offices’ and
       divisions’ records management programs.

The SEC does not have an active staff assistance program and there is no
evidence that periodic staff assistance visits were conducted by ORMS or its
predecessors on all SEC offices and divisions. Not carrying out these
responsibilities is inconsistent with the requirements in SECR 7-1, Securities and
Exchange Commission’s Records Management Program, September 29, 1996
(SECR 7-1).

SECR 7-1 indicates the records officer should schedule and make staff
assistance visits to each SEC office of record at least every 18 months. It further
says to ensure the efficient and economical creation, management and
disposition of records SEC-wide, the Records Officer will establish and operate
an active and continuing staff assistance program. Also, SECR 7-1 states that
staff assistance visits should cover the records management program, electronic
records and micrographic records, among other records management disciplines
such as directives, forms, mail, etc.

Assistance ORMS Provided to Offices and Divisions. Over the years ORMS
has continually provided assistance to SEC offices and divisions in identifying
their records and scheduling records for disposition. NARA’s guidance does not
specifically define formal evaluations and thus, ORMS’ management considers
the assistance it provides to offices and divisions as formal evaluations. ORMS
Archivist informed OIG that prior to January 2012, he was unable to regularly
conduct the visits as required in SECR 7-1, due to staff shortages. He further
stated there were other urgent issues the office’s limited resources were focused
on when he assumed the position in May 2007, such as addressing the backlog
of records that was in storage. He further told OIG that ORMS is generally aware
of unique records management matters applicable to each SEC office and
division. Since January 2012, ORMS has evaluated five Regional Offices’
records management programs and has plans to evaluate the remaining offices.



SEC’s Records Management Practices                                September 30, 2012
Report No. 505

                                      Page 5
Feedback From SEC Records Management POCs. In addition to issuing a
survey to the records management POCs, OIG met and conducted phone
interviews with them to garner information about their office’s or division’s
records management program and responsibilities. When asked when was the
last time they reviewed their records retention schedules and disposed of
records, 13 percent of POCs indicated they had not disposed of any records
because they did not have a records retention schedule; did not have staffing
resources to do so; or were not knowledgeable about their schedule. Forty
percent stated their office had never disposed of any records. Another 40
percent indicated they had worked at the SEC for two years or less and had not
disposed of any records. The latter POCs further indicated they did not know
when their office had last disposed of records.

In interviews, two POCs informed OIG they had received new documents from
external sources and had created new documents in late 2011. However, neither
knew if documents were considered records and they had not consulted with
ORMS. As discussed in Finding 2 of this report, some POCs are unaware
ORMS is available to provide assistance with determining the disposition of
records.

Not disposing of records in accordance with the approved records retention
schedule is inconsistent with 36 C.F.R. § 1228.156 (f), which states that Federal
agencies “must ensure that disposable records, including restricted records
(security classified or exempted from disclosure by statute, including the Privacy
Act, or regulation), are destroyed in accordance with the requirements specified
in 36 C.F.R. §1228.58.”17

Conclusion. An inactive agency-wide staff assistance program can cause
confusion among POCs. Misunderstanding of records management
responsibilities prevents organizations from achieving the benefits of a well-
managed program, such as maintaining institutional knowledge and preserving
pertinent information.

ORMS should periodically conduct agency-wide staff assistance visits of SEC’s
records management programs in accordance with SECR 7-1, so they are aware
of newly created records and they can provide assurance the SEC is properly
retaining and scheduling records for disposition. Further, ORMS should inform
SEC staff they can find answers to questions on the hyperlinks “How to Request
Records” and “Frequently Asked Questions About Records,” that are located on
the SEC’s Intranet. Useful answers to questions that can be found in the
hyperlinks include “what I need to know about records management, recycling
and destroying records, record retentions schedules, clearance from records
management for departing SEC employees,” etc.

17
     36 C.F.R. § 1228.156 (f).
SEC’s Records Management Practices                               September 30, 2012
Report No. 505

                                      Page 6
           Recommendation 1:

           The Office of Support Operations should ensure the Office of Records
           Management Services (ORMS) periodically conducts agency-wide staff
           assistance visits of the Securities and Exchange Commission offices’ and
           divisions’ records management programs in accordance with SECR 7-1,
           Securities and Exchange Commission’s Records Management Program.
           To assist in this process, ORMS should develop a plan that identifies a
           timeline for the conduct and scope of the staff assistance visits.

           Management Comments. OSO concurred with this recommendation.
           See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OSO concurred with this
           recommendation.


Finding 2: Records Management Training Was Not
Provided to All SEC Staff on Their
Responsibilities
           ORMS did not provide training on records management to
           employees and POCs agency-wide on their responsibilities,
           which is inconsistent with a requirement in 36 C.F.R. §
           1220.34(f).

During the scope of our audit, we determined that ORMS readily answered
questions from agency staff that inquired about records matters and provided
them assistance. ORMS also conducts a 10-minute informative session on
records management during SEC’s New Employee Orientation for new
employees, contractors and interns. Additionally, ORMS conducted a training
session on records management at the Office of the Chief Operating Officer’s
(OCOO) Mission Support Conference that was held in February 2012.

Nonetheless, ORMS has not provided agency-wide records management training
to all staff on a general basis regarding their records management
responsibilities, in accordance with 36 C.F.R. § 1220.34(f). According to 36
C.F.R. § 1220.34(f), Federal agencies should “provide guidance and training to
all agency personnel on their records management responsibilities, including the
identification of Federal records, in all formats and media.”18 It should be noted
that 36 C.F.R. § 1220.34 does not address the frequency training should be
offered to staff.

18
     36 C.F.R. §1220.34 (f).
SEC’s Records Management Practices                                 September 30, 2012
Report No. 505

                                        Page 7
In the survey OIG administered to records management POCs, 82 percent of the
respondents indicated they had not received any records management training
from ORMS. Our audit found that this lack of training has caused confusion
among employees who do not understand their records management
responsibilities or ORMS’ role and responsibilities. The following examples
illustrate the confusion regarding records management that POCs shared with
OIG:

      A POC stated that based on her understanding of the
       Federal regulations related to records management, she
       thought it was ORMS’ responsibility to review their records
       retention schedule and to dispose of records.

      A senior level staff member who no longer works at the SEC,
       left documents in her office and staff did not know who had
       the responsibility to review them and if the documents
       should be retained or disposed.

ORMS Records Management Program and Training. Since January 2012,
ORMS has provided records management training to five Regional Offices.
Feedback from the Regional Offices indicates the training has been helpful. In
early May 2012, ORMS hired two branch chiefs to assist with records operations
and policy, training and compliance. ORMS’ management says the branch
chiefs will prepare a branch specific strategic plan and establish a program that
offers periodic records management training to SEC employees.

The lack of systematic records management training has resulted in POCs
retaining records that probably should have been disposed.

Other Agencies’ Records Management Programs and Training. NARA
provided OIG with the names of three Federal agencies they believe have well-
managed records program. Two agencies responded to our request for
feedback on their programs. Both agencies told us they provide ongoing training
through web-based, on-line, and in-person avenues. They further offer training
on a variety of records management subjects and the training varies depending
on the audience. For instance, different training courses are available for agency
employees needing basic records management knowledge and for records
management POCs who are more familiar with records management regulations.

Conclusion. ORMS did not provide records management training to staff
agency-wide on their records management responsibilities. As a result,
confusion exists regarding their responsibilities and ORMS’ records management
role and responsibilities. ORMS should develop a systematic records
management training program that is geared towards all SEC staff and then
provide training to all.
SEC’s Records Management Practices                               September 30, 2012
Report No. 505

                                     Page 8
        Recommendation 2:

        The Office of Support Operations should ensure the Office of Records
        Management Services (ORMS) develops a records management training
        program that covers training sessions for all Securities and Exchange
        Commission employees. ORMS should determine the audience, scope,
        material, and training schedule. Training factors ORMS should consider
        include defining records, how to treat records in accordance with Federal
        regulations and records retention schedule, records management
        responsibilities for employees and designated points-of-contact.

        Management Comments. OSO concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OSO concurred with this
        recommendation.


Finding 3: Some Records Requests Processing
Did Not Align With ORMS’ Established Business
Goals and Records Requests Were Not
Completed in Accordance with the SOP
        ORMS did not process records requests within their
        established internal business goals. In most cases ORMS
        staff did not inform its management about the delays in
        writing, as required per the office’s SOP. Further, ORMS
        staff did not follow their SOP when processing records
        requests the office received.

ORMS Services and Processes
ORMS provides reference services to staff, as well as “other Federal, state and
local entities and members of the public that are essential in assisting the SEC in
achieving its mission.”19 Additionally, ORMS “coordinates with the Commission’s
Office of Investor Education and Advocacy and Public Reference Room to
service records reference requests from the public”20 and assists the Office of
FOIA Services with responding to FOIA requests from the public for nonpublic
records.

19
   ORMS, Standard Operating Policy for Properly Servicing and Completing a Request for Records – the
Lifecycle of a Request, p.1.
20
   Id.
SEC’s Records Management Practices                                                September 30, 2012
Report No. 505

                                               Page 9
ORMS only accepts records requests from SEC employees. SEC employees
can request records by completing the “Request For Records Template” that is
available on SEC’s Intranet. Completed templates are emailed to ORMS’
records requests inbox. ORMS maintains a log of record requests to track when
records are received and processed. Among other items, the template includes
a box that can be checked covering areas such as confidential treatment
requests files, correspondence, investigation records, matters under inquiry
records, transcripts, workpapers, consumer complaint files, Congressional and
Chairman files, administrative proceedings files, self-regulatory files, bankruptcy
files, and effective orders, etc. Based on fiscal years 2010 and 2011 data we
reviewed, OIG determined that ORMS receives approximately 210 records
requests each month from SEC employees and FOIA. 21

ORMS’ SOP indicates the office’s goal is to process requested records within
three business days for urgent requests and seven business days for non-urgent
requests.22

Records Requests. To assess the average length of time ORMS spent
processing records requests, OIG obtained and reviewed a sample of 105
records requests23 the office had received. Thirty-eight (38) of 105 records in our
sample were for non-urgent requests. Our analysis revealed they were not
processed within ORMS’ seven business days goal for non-urgent requests. In
some cases it took ORMS up to eight months to process requests. ORMS
informed OIG that the delays occurred because some of their staff lacked the
skills and aptitude needed to properly process requests in a timely fashion.

ORMS data on its records requests turnaround time revealed that 80 percent of
records requested in fiscal year 2012 were processed within eight business days.

Requests and ORMS’ SOP. Our audit determined that ORMS staff did not
follow its SOP that requires them to notify management regarding delays that
occur when they processed records that took more than 20 days. ORMS
informed us this requirement became effective August 24, 2009. OIG found that
it took more than 20 days to process 10 of 38 non-urgent records requests in our
sample. Only 1 of the 10 requests indicated the reason for the delay was
communicated to management. ORMS informed us that although the delay was
not properly identified on the records request document, it is possible staff
verbally communicated the reasons for the delay to management; however it was
not documented according to the office’s SOP.



21
   The public submits FOIA requests for SEC records to the Office of FOIA Services.
22
   ORMS, Standard Operating Policy for Properly Servicing and Completing a Request for Records – the
Lifecycle of a Request, p.1.
23
   Our sample included urgent and non-urgent requests dating from January 2008 to September 2011.
SEC’s Records Management Practices                                                September 30, 2012
Report No. 505

                                              Page 10
ORMS’ SOP further requires its employees to “place copies of all documents
(emails, notes or any other information) pertaining to requests in the dossier and
return the assigned request for records in the dossier to ORMS staff members
who are responsible for managing the request for records mailbox and log, the
ORMS Chief, or his (her) designee.” 24 For 18 of 105 records in our sample,
sufficient information was not identified in the dossier such as the request form,
status of the request, and completion date. This lack of information prevented
OIG from determining what the requests were and whether the requests were
completed.

ORMS’ SOP also requires the “staffer who processed the records request returns
the assigned request for records dossier to the ORMS staffer responsible for
managing the request for records mailbox and log, the ORMS Chief or designee.
The ORMS employee responsible for managing the records requests mailbox
and log uses the supporting documentation to code the requested service. [The]
ORMS staff [who completed the records request] does not code the serviced
request.”25 ORMS uses a system of “approved codes” as shown in Table 1
below, to assess the status of records requests the office receives.

           Table 1: ORMS Approved Action Codes for Records Requests
            ORMS             Action Taken for the Request
            Code
                0        Requestor cancelled the records request.
                1        ORMS closed the records request by referring the requestor to
                         other sources such as SEC subscription database.
                2        ORMS completed the records request.
                R        ORMS reassigned the records request to another staff
                         member.
          Source: OIG generated

There were 2 of 105 records in our sample coded as “2-completed requests,” but
ORMS could not locate these records. To aid in resolving this problem, ORMS
should develop a new code to categorize requested records that cannot be
located. ORMS management agreed a new code is needed. ORMS further
stated its staff had previously made this suggestion, but due to other priorities it
was not pursued further.

Another record in our sample was coded as “8.” ORMS management told us the
code had not been approved and staff had developed it to describe actions they
had taken.

When asked whether ORMS reviews a sample number of processed records
requests, we were told the office had done so in the past, but not consistently.

24
   ORMS, Standard Operating Policy for Properly Servicing and Completing a Request for Records – the
Lifecycle of a Request, p. 7.
25
   Id.
SEC’s Records Management Practices                                                September 30, 2012
Report No. 505

                                              Page 11
ORMS believes the office can best monitor records requests and other items if
the process is automated.

Best Practices. In identifying best practices, OIG consulted with a records
officer from another Federal agency who told us their automated records
management system contributes to the office’s efficiency. She further relayed
that the records management system “has outstanding features such as tracking
records, when the records are due back to the records office, what records are
up for destruction, etc. It has allowed the records office to locate where records
are and better track them and identify where permanent assets are.” Having an
automated system for records management may contribute to ORMS efficiently
overseeing the SEC’s records management program.

Conclusion. As evidenced by OIG’s review of a sample number of records
requests, some ORMS staff did not follow the office’s SOP records requests
procedures and requests were not completed within ORMS’ goal. ORMS should
implement additional internal controls such as a more robust management review
of records requests to ensure staff complete requests within its goal and they
comply with their SOP (e.g., including required information in a dossier and
notifying management of delays in processing records that take more than 20
days).

The Office of Management and Budget Circular A-123 “Management’s
Responsibility for Internal Control” establishes that management has a
fundamental responsibility to develop and maintain effective internal controls.
Ineffective internal controls have prevented ORMS from timely processing
records requests and it has led to confusion on whether records were completed.
Further, “effective controls over the creation, maintenance, and use of records in
its current business”26 will aid ORMS improve the management and maintenance
of the SEC’s records management program.

           Recommendation 3:

           The Office of Support Operations should ensure the Office of Records
           Management Services (ORMS) develops internal controls that assure
           ORMS staff are provided oversight and adhere to the office’s standard
           operating policy.

           Management Comments. OSO concurred with this recommendation.
           See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OSO concurred with this
           recommendation.

26
     36 C.F.R. § 1220.30.
SEC’s Records Management Practices                                 September 30, 2012
Report No. 505

                                        Page 12
Finding 4: Some SEC Offices or Divisions Do Not
Have Records Retention Schedules and Others
Should Be Updated
        SEC has newly created offices that do not have records
        retention schedules and there are other offices that ORMS
        has not met with to create their records retention schedules.

According to NARA, Federal agencies are to “develop records schedules for all
records created and received by the agency and obtain NARA approval of the
schedules prior to implementation, in accordance with 36 C.F.R. parts 1225 and
1226.”27 Federal agencies have common records such as personnel, payroll,
and training records that NARA has classified and are included in General
Records Schedules (GRS). GRS are “issued by the management of the United
States to provide disposition authorization for records common to several or all
agencies of the Federal Government. They include records relating to civilian
personnel, fiscal accounting, procurement, communications, printing, and other
common functions, and certain non-textual records. They also include records
relating to temporary commissions, boards, councils and committees. Because
these schedules are designed to cover records common to several agencies,
many record descriptions are general. Agency records officers may either use
the schedules as an appendix to an agency printed schedule or tailor the general
schedules to the agency’s own particular needs and incorporate them into
agency schedules.”28 The SEC has five offices that are covered by GRS:29

        1. Office of Equal Employment Opportunity
        2. Office of Financial Management
        3. Office of Human Resources (OHR)
        4. Office of Information Technology (OIT)
        5. Office of Support Operations

According to SECR 7-1, Section B. 8, division directors, office heads, regional
directors and district administrators should “make sure that active records are
properly and economically maintained and used, and systematic disposition of
inactive records are made on a regularly scheduled basis.”

Records Retention Schedules

SEC offices and divisions are responsible for maintaining their records in
accordance with their approved retention schedules. As previously discussed,

27
   36 C.F.R. § 1220.34.
28
   GRS is the retention schedule for these offices. See NARA’s website (http://www.archives.gov),
Introduction to the General Records Schedules.
29
   OCOO and OSS also have records that are on GRS, as well as records that are not on GRS.
SEC’s Records Management Practices                                                   September 30, 2012
Report No. 505

                                                Page 13
most offices and divisions have records retention schedules that have been filed
with ORMS. However, the SEC’s comprehensive records schedule is dated
September 1997. Since then the SEC has added new offices and combined,
abolished and/or renamed others. Some offices and divisions that are not
covered by GRS either do not have records retention schedules or are in the
process of revising their current retention schedules.30 Additionally, the offices
which fall under GRS do not have records retention schedules, other than GRS,
which is the retention schedule for these offices.

Our review of records retention schedules and records management processes
found that a particular division identified several risks for the division’s records
management program such as identifying records owners and outdated records
management policies. Another office was in the process of redefining the
documents it created and received from internal and external sources during our
audit. Subsequently, the office conducted a full inventory to identify
“scheduled”31 records and has been working with ORMS to get its
“unscheduled”32 records appropriately scheduled.

OIG further identified POCs from two offices who had not met with ORMS
regarding documents the office generated that met the records definition or to
determine if a retention schedule was needed. One of the offices indicated that
in late 2011, staff turned over in its records management function. The office
recently hired a managing executive and a business manager to enhance its
operational functions which includes records management. The POC indicated
the office’s prior records management practice was to work with ORMS as issues
arose and they had no continuous or consistent contact with ORMS. The office
subsequently met with ORMS to identify its records and modify its records
retention schedule.

A POC from the second office in our example informed OIG he did not think his
office had created any records. The POC stated the records the office “create[s]
would be typically managed in systems or files external to [their] office.” He also
said they would “rely on the email retention mechanisms to manage those
external records to their office. [Hence], the office does not have any specific
practices and procedures defined [for records management] and [they] do not
have retention schedules beyond those of the Commission’s policies as a whole.”



30
   While the retention schedules are being revised, SEC offices and divisions are expected to follow their
current records retention schedules.
31
   Scheduled records represent federal records whose final disposition is approved by NARA. Scheduled
records are identified in a records retention schedule when the records will be destroyed.
32
   Unscheduled records represent federal records whose final dispositions have not been approved by
NARA, and are based on the Form SF 115, Request for Records Disposition Authority. NARA requires that
unscheduled records must be treated as permanent records until it approves a final disposition for the
records.
SEC’s Records Management Practices                                                  September 30, 2012
Report No. 505

                                                Page 14
Forty-two percent of personnel in our survey indicated their office or division did
not have a records retention schedule. This indicates there is a lack of
understanding of records retention schedules. For example, a records
management POC initially thought his office had not finalized its records
retention schedule. However, our review of ORMS’ comprehensive records
schedule and inquiries revealed the office did in fact have a schedule.

ORMS should ensure the SEC’s records retention schedules are current. Not
having records retention schedules for all offices and divisions could cause
POCs to misunderstand their roles and responsibilities. In addition, it could
potentially result in retaining unnecessary records or discard records that should
have been preserved. ORMS’ management informed us that while they want to
actively interact with SEC offices and divisions on a continuous basis, it does not
have sufficient resources to do so. A few POCs informed us that ORMS should
actively engage with Commission’s offices and divisions to ensure that robust
records management processes and procedures are in place and are being
carried out by Commission staff.

       Recommendation 4:

       The Office of Support Operations should ensure the Office of Records
       Management Services (ORMS) works with the Securities and Exchange
       Commission (SEC) offices and divisions to ensure they all have current
       records retention schedules that encompass the office’s or division’s
       records. Accordingly, ORMS should determine whether it should update
       the SEC’s comprehensive records retention schedule to ensure it is
       reflective of current SEC offices’ and divisions’ records.

       Management Comments. OSO concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OSO concurred with this
       recommendation.




SEC’s Records Management Practices                                 September 30, 2012
Report No. 505

                                      Page 15
Finding 5: Some SEC Offices and Divisions Did
Not Review Their Records Retention Schedules
and Dispose of Records in Accordance with Their
Schedules
       Some offices and divisions kept all the records they
       created and received and did not periodically review
       their records retention schedules and dispose of
       records in accordance with their schedules.

Some offices keep all the records they create and receive. This could potentially
lead to inefficient utilization of office space in the future. An office that was
established in 2009 indicated they maintained the records the office created.
They are in the process of creating a records retention schedule. ORMS
indicated that as of late July 2012, NARA was reviewing this office’s records
retention schedule.

A POC informed OIG that it does not have a records retention schedule, but has
met with ORMS to discuss what type of records it has and to determine if a
records retention schedule is necessary. The POC believes that from a risk
perspective, because the office has approximately 50 employees and generally
does not generate or receive many original records, a records retention schedule
may not be needed. He further said many of their employees work in a field that
encourages the preservation of documents. The office maintains a file room that
has historical documents dating back to the 1940s. ORMS was unaware the
office had not disposed of any records. OIG confirmed that the office does have
a records retention schedule. Subsequently, ORMS met with the POC to discuss
the office’s records and scheduling processes.

OIG met with two POCs whose records are covered by GRS. The first POC
informed us they had not reviewed records management regulations regarding
disposing and managing the office’s records, due to a lack of resources. She
further indicated the office needed training on records management. ORMS’
management told OIG that because its office follows GRS their records should
be disposed of in accordance with GRS, which requires that most records have a
two-year retention period. The second POC stated since her arrival at the SEC
in November 2009, the office had not reviewed their records to determine how
and what should be disposed of, and had contacted NARA for guidance. The
office plans to review the disposition of its records in the near future.




SEC’s Records Management Practices                              September 30, 2012
Report No. 505

                                     Page 16
Backlog of Records at FRC Need to Be Reviewed. Additionally, our audit
found that ORMS had not reviewed the content of 256 boxes their contractor
identified in its November 2010 report. The boxes contained records ORMS
received from various sources and ORMS needs to review the content of the
boxes to determine the disposition and dates of the records.33 In September
2012, ORMS informed OIG that it has now reviewed 98 boxes and they are
coordinating with the FRC to review the content of the remaining boxes.

Proper Records Management Procedures. We determined that many offices
and divisions do not have proper records management procedures and do not
ensure active records are properly and economically maintained and used on a
regular basis. Further, the systematic disposition of inactive records is not
regularly performed. Many POCs indicated they are unsure when the offices’
and divisions’ records should be disposed of and do not do so annually.

When a FOIA request for a record is received and the record is available,
Federal agencies are expected to provide the record after a reasonable research
has been conducted. Whether the record should be disposed of in accordance
with the retention schedule is irrelevant. If the record exists, even though it
should have been disposed of in accordance with the retention schedule, the
SEC is required to provide it in a FOIA request. As such, there is a risk the SEC
could provide information that should have been disposed. The FOIA office
informed OIG that during the litigation discovery period for records, Federal
agencies are expected to perform extensive searches and provide the record if
the agency has it, regardless of the record’s retention period.

Not having a records management program or procedures that enable offices
and divisions to review records retention schedule and to properly dispose of
records violates 36 C.F.R. § 1220.34(d) which states that agencies must “assign
records management responsibilities in each program (mission) and
administrative area to ensure the incorporation of recordkeeping requirements
and records maintenance, storage, and disposition practices into agency
programs, processes, system and procedures. Moreover, it violates 36 C.F.R. §
1220.34 (g) which states that agencies must “develop records schedules for all
records created and received by the agency and obtain NARA approval of the
schedules prior to implementation, in accordance with 36 C.F.R. § 1225 and
1226.”34

ORMS has not periodically contacted all records management POCs and
provided them with guidance regarding their responsibility to identify records for
disposal. By not disposing of records in a timely manner and taking full action to


33
   The report ORMS’ contractor issued in November 2010 identified the 256 boxes. ORMS stated the initial
size of the backlog was approximately 1,000 boxes.
34
   36 C.F.R. § 1220.34 (d) and (g).
SEC’s Records Management Practices                                                 September 30, 2012
Report No. 505

                                               Page 17
preserve records having no administrative, legal, or other value, could cause the
SEC to inefficiently use office space and increase the cost to preserve records.

Conclusion. Several offices did not dispose of their records in accordance with
the records retention schedules. Additionally, our audit revealed that ORMS has
a backlog of records that was identified in 2010 that still needs to be reviewed to
determine the proper treatment of the records. ORMS’ actions has led non-
compliance with Federal regulations that requires records be properly disposed
of based on the records retention schedules. Further, not disposing of records in
accordance with the records retention schedules poses a risk the SEC is
providing information when a FOIA request is made.

       Recommendation 5:

       The Office of Support Operations should ensure the Office of Records
       Management Services establishes records management procedures that
       enable the offices and divisions to properly manage their records in
       accordance with applicable federal regulations and Securities and
       Exchange Commission’s administrative regulations.

       Management Comments. OSO concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OSO concurred with this
       recommendation.

       Recommendation 6:

       The Office of Support Operations should ensure the Office of Records
       Management Services establishes a definitive plan and milestones to
       review the remaining backlog of boxes that are being maintained at the
       Federal Records Center and ensures proper disposition of the records that
       are contained in the boxes.

       Management Comments. OSO concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OSO concurred with this
       recommendation.




SEC’s Records Management Practices                                September 30, 2012
Report No. 505

                                     Page 18
         Recommendation 7:

         The Office of Support Operations should ensure the Office of Records
         Management Services provides guidance to records management points-
         of-contact and requires, at least annually, they determine whether there
         are any records requiring disposal for their individual offices and divisions.

         Management Comments. OSO concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OSO concurred with this
         recommendation.


Finding 6: The Backlog of Records Being
Maintained at FRC Were Not Reviewed
         ORMS has 10-year backlog of SEC records at the FRC that
         are eligible for destruction and they did not review and
         approve the records for destruction.

ORMS has not timely reviewed Commission records that are eligible for
destruction. ORMS Archivist inherited a substantial backlog of records upon his
arrival to the SEC in May 2007. The backlog represents approximately 10 years
of records that are eligible for destruction. ORMS must review and approve
these records before they can be destroyed.

ORMS Records Disposal Cycle. At the end of each fiscal year FRC sends a
records disposal form to ORMS that lists all the SEC’s records in their
possession that are eligible for permanent destruction. The disposition form
includes a job number and the year the record is due to be destroyed. The form
also identifies if the records are temporary. FRC submits a request to ORMS for
its approval before it destroys the records.35

FRC informed ORMS they had 29,345 cubic feet of records eligible for
destruction at the end of fiscal year 2011. ORMS approved the destruction of
2,306 cubic feet of these records. We concluded that had ORMS timely
reviewed the records in prior years, the backlog would not exist.



35
   44 U.S.C., Disposal of Records, § 3303a(e), requires an examination by Archivist of lists and schedules of
records lacking preservation value. Further, it states “[The Archivist of the United States] may approve and
effect the disposal of records that are in his legal custody, provided that records that had been in the custody
of another existing agency may not be disposed of without the written consent of the head of the agency.”
SEC’s Records Management Practices                                                      September 30, 2012
Report No. 505

                                                  Page 19
As part of our sampling, OIG requested the following information from ORMS:

        The number of records ORMS disposed of each year;
        The number of records that remains to be destroyed by year; and
        The total number of records the SEC created from 1999 to 2011.

ORMS was unable to provide the information we requested because it does not
have a viable method to track the information.

Further, OIG found that ORMS does not maintain a list of the Commission
records that are eligible for destruction identified by FRC. However, the office
does maintain hard copies of the disposal forms the FRC provides to ORMS.
OIG’s review of the approved disposal forms for fiscal year 2011 found that a
form was completed for all disposals and the disposals were properly approved.

OIG could not perform a walkthrough of ORMS’ record disposal process because
our observation of their records indexing36 was problematic.37 For example,
based on ORMS’ record indexing we requested records for our review.
However, none of the records were found because the index was incorrect.
ORMS says the indexing problem only exists for records that were created
before 2008. Further, ORMS stated until they can do a full inventory of the
Commission’s records that are located at the FRC and verify the records, none of
them can be destroyed.

Conclusion. ORMS did not dispose of SEC records in accordance with the
retention schedules, which is inconsistent with 44 U.S.C. § 3102, Establishment
of Program of Management, that requires Federal agencies establish and
maintain an active, continuing program for the economical and efficient
management of the agency records.38

         Recommendation 8:

         The Office of Support Operations should ensure the Office of Records
         Management Services (ORMS) develops an action plan to address the
         10-year backlog of records that the Federal Records Center (FRC)
         identified as eligible for destruction. In developing an action plan, ORMS
         should determine a timeline to address the backlog of records, a timeline
         to conduct a full inventory of the Security and Exchange Commission’s
         records, and how ORMS will address the indexing system for archived
         records.


36
   ORMS indexes records by maintaining a log that states where the records are located.
37
   In September 2012, ORMS management informed OIG that the records have been reviewed and legacy
issues were identified that must now be resolved before the records can be approved for destruction.
38
   44 U.S.C. § 3102.
SEC’s Records Management Practices                                              September 30, 2012
Report No. 505

                                             Page 20
           Management Comments. OSO concurred with this recommendation.
           See Appendix VII for management’s full comments.

           OIG Analysis. We are pleased that OSO concurred with this
           recommendation.


Finding 7: Records Management Points-of-
Contact Have Not Been Identified for All SEC
Offices and Divisions
           While most offices and divisions have appointed POCs for
           records management matters, some have not; therefore,
           ORMS cannot clearly identify POCs for each office or
           division. OIG could not determine who all the designated
           records management POCs were for individual offices or
           divisions based on ORMS’ listing of meetings held with SEC
           offices and divisions for records management matters.

NARA, 36 C.F.R., Section 1220.34(d) requires Federal agencies to “assign
records management responsibilities in each program (mission) and
administrative area to ensure incorporation of recordkeeping requirements and
records maintenance, storage, and disposition practices into agency programs,
processes, systems, and procedures.”39

OIG requested a list of SEC’s records management POCs and learned that
although ORMS does not maintain an official listing, it has a list of offices and the
names of people they worked with on records management matters. At the SEC,
business managers and administrative officers typically serve as records
management POCs, but other employees such as assistant directors, legal
counsel, etc., also serve in this role. ORMS has established relationships with
offices and divisions and they address any questions and concerns the may have
regarding records matters. ORMS provided us with a list of employees they met
with over the past few years regarding records matters, and employees they
consider to be POCs.

We determined that ORMS’ list needs to be updated to include all POCs. While
most offices and divisions have appointed POCs for records management
matters, some have not. Moreover, our audit found some offices and divisions
did not have designated POCs until 2011 or 2012. Furthermore, there appears
to be confusion between ORMS and offices and divisions pertaining to who is

39
     36 C.F.R. § 1220.34(d).
SEC’s Records Management Practices                                 September 30, 2012
Report No. 505

                                       Page 21
designated as the records management POC. For example, OIG was informed
of a particular employee who had been the office’s records management POC
since the 1990s, but he was not on ORMS’ list. In another instance, ORMS’ list
identified an employee from an office as the records management POC.
However, the employee said he only worked with ORMS on records matters for
his branch and not for the entire office. We later found that the office director had
assigned its assistant directors as records management POCs. However, the
names of the assistant directors were not on ORMS’ records management list.
Moreover, an employee ORMS identified as a POC for another office told OIG
she was not the records management POC. OIG was later informed that the
head of the office, along with two employees, were responsible for the office’s
records; however, they were not identified as POCs on ORMS’ list. Further, an
office told us they did not have a POC due to staff turnover. Subsequently, the
office appointed a records management POC. Lastly, one office just designated
a records management POC in January 2012.

Additionally, our audit found that ORMS has not reviewed the records
management program of two headquarters offices. ORMS stated that one of the
office directors started at the SEC in November 2011, and due to other priorities
they had not contacted the office but planned to do so. ORMS told us that not all
offices and divisions consider records management a priority and it has been
difficult for certain offices and divisions to focus on records management
practices. This is consistent with NARA officials’ observations. NARA officials
told us that the lack of priority for records management is common in Federal
agencies. However, because of a records destruction matter that occurred at the
SEC, it appears offices and divisions are now more supportive of ORMS’
initiatives.

A management official informed us she thought ORMS was responsible for
reviewing the office’s retention schedule, when in fact this responsibility resides
with each office or division. Further, an administrative officer who serves as the
records management POC stated she has not worked with ORMS since 2008
and was unfamiliar with record rules and ORMS’ responsibilities.

Based on a recommendation from NARA, OIG contacted two Federal agencies
and an independent Federal agency from the financial industry, and asked them
how they communicated with offices in their agencies regarding records
management matters. The agencies told us they have records management
POCs in each office at their respective agency.

Conclusion. SEC’s records management directives do not require offices or
divisions to have records management POCs. ORMS management agrees that
establishing records management POCs for all offices and divisions is important,
but say they need the support and assistance of SEC offices and divisions to do
so.

SEC’s Records Management Practices                                 September 30, 2012
Report No. 505

                                      Page 22
Not having records management POCs has contributed to ineffective
communication between ORMS and SEC offices and divisions on records
management matters, such as misunderstandings regarding responsibilities and
staff not properly following Federal regulations and SEC policies on records
management.

        Recommendation 9:

        The Office of Support Operations should ensure the Office of Records
        Management Services (ORMS) issues a directive, requiring all Securities
        and Exchange Commission offices and divisions to designate a point-of-
        contact (POC) for records management matters and inform ORMS of their
        designated POC. ORMS should maintain a list of POCs that is verified
        annually.

        Management Comments. OSO concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OSO concurred with this
        recommendation.


Finding 8: SEC’s Vital Records Management
Program Needs Improvement
        Offices and divisions are not reviewing their vital records
        listing annually in compliance with Federal regulations.
        Further, we determined the SEC’s vital records are not
        current and complete based on our review of vital records in
        12 offices and divisions.

Designated staff in SEC offices and divisions are not annually reviewing and/or
updating their vital records in accordance with Federal Continuity Directive 1
(FCD 1), Federal Executive Branch National Continuity Program and
Requirements, which states that “at a minimum, vital records should be annually
reviewed, rotated, or cycled so that the latest version will be available.”40
Further, the SEC is not in compliance with 36 C.F.R. § 1223.14(c) which states
that agencies must “ensure that the designation of vital records is current and
complete.”



40
  Federal Continuity Directive 1 (FCD 1), Federal Executive Branch National Continuity Program and
Requirements, (Feb. 2008), Annex I, p. I-3.
SEC’s Records Management Practices                                                 September 30, 2012
Report No. 505

                                               Page 23
OSS is responsible for SEC’s vital records management. OSS provided OIG
with the SEC’s Continuity of Operations (COOP) Plan (2010 COOP Plan), dated
April 2010, which included a listing of vital records for SEC offices and divisions.
OIG also obtained and reviewed SEC’s draft 2011 vital records listing. We found
that the 2010 COOP Plan and the draft 2011 vital records listing include vital
records of an office that no longer exists and whose function was merged into
another office that was created in September 2009.

Vital Records at the SEC. According to SEC’s 2010 COOP plan, vital records
are “electronic and hardcopy documents, references, and records needed to
support essential functions during a continuity of operations situation. The two
basic categories of records are emergency operating records and legal and
financial records.” SEC defines emergency operating records as “records that
support the execution of an agency’s essential functions.” In addition, SEC
defines legal and financial records as “records that are needed to protect the
legal and financial rights of the Government and of the persons affected by its
actions.”

SEC Offices and Divisions Are Not Reviewing Their Vital Records Listing
Annually. OIG interviewed staff from 12 offices and divisions that were on
SEC’s Continuity Task Force, and had responsibility for maintaining their office or
division’s vital records listing. 41 Staff was asked “When was the last time you
reviewed and/or updated your vital records listing?” Our audit found the answers
shown in Table 2.

                        Table 2: Survey Results of SEC Offices and
                        Divisions Vital Records Listings
                          Number of                    Category Results
                           Offices
                                 2           Reviewed their vital records listing
                                             annually
                                 2           Reviewed their vital records listing
                                             continuously
                                 2           Did not review their vital records
                                             listing annually
                                 2           Reviewed their vital records listing a
                                             year or more ago
                                 3           Did not know when they last
                                             reviewed or updated their vital
                                             records listing
                                1            Other
                             Total 12
                        Source: OIG Generated.



41
   SEC’s Continuity Task Force was made up of agency-wide personal designees who have oversight of
their offices’ or divisions’ vital records and periodically met with the defunct Office of the Executive Director
to discuss COOP matters and their vital records responsibilities.
SEC’s Records Management Practices                                                         September 30, 2012
Report No. 505

                                                   Page 24
One designee in the “reviewed their vital records listing continuously” category
was unable to provide the vital records listing due to staff turnover. One
designee in the “reviewed their vital records listing annually” category admitted
the last time they updated its vital records listing was in May 2010 in preparation
for the May 2010 exercise. The designee further stated the office reviews its vital
records listing prior to the national COOP government exercise that occurs every
two years. A second designee in this category stated that the last time they
reviewed and updated its vital records listing was in June 2006. A designee in
the “did not know when they last reviewed or updated their vital records listing”
category stated that OSS recommended the office not rely on old vital records
listing and to disregard it because the list may contain items that are not vital
records. Further, the designee stated OSS informed them that the way SEC
previously identified and maintained vital records may change. A designee in the
“reviewed their vital records listing a year or more ago” category stated that it
currently updates the vital records listing as changes occur and they will review it
quarterly. Finally, the designee in the “other” category stated that December
2011 was the first time the office had formally reviewed and updated its vital
records listing and the office has kept a catalog of its vital records from its
inception in 2009.

Vital Records Listing. We obtained the 12 offices and divisions vital records
listings and compared them to the vital records that were included in the 2010
COOP Plan and the draft 2011 listing. Our testing revealed the following results
as illustrated in Table 3.




SEC’s Records Management Practices                                September 30, 2012
Report No. 505

                                     Page 25
     Table 3: Survey Results of SEC Offices and Divisions Vital Records
     Listings, as Compared to the Vital Records in 2010 COOP Plan and
     the Draft 2011 Listing
                                                    Did Not       New Office-No
                              Agreed   Did Not                                         No Vital
                                                    Agree to     Vital Records in
                  Vital         to      Agree                                          Records
       Office/                                     Draft 2011      2010 COOP
                 Records       2010    to 2010                                        Received
      Division                                        Vital       Plan/No Draft
                 Agreed       COOP      COOP                                         From Office/
                                                    Records         2011 Vital
                               Plan      Plan                                          Division
                                                     Listing     Records Listing
         1           
         2           
         3           
         4                                            
         5                                            
         6                                            
         7                                            
         8                                                                               
         9                                                                               
         10                                                                              
         11                                                                              
         12                                                          
     Source: OIG Generated.

Specifically, we found that only three offices and divisions records agreed to the
draft 2011 vital records list. OIG’s findings demonstrate that although SEC
offices and divisions are responsible for reviewing their vital records listing
annually and updating the vital records as necessary, oversight is needed to
ensure all offices and divisions monitor their vital records listing at least annually
and verify their compliance with Federal regulations.

Defunct Office of the Executive Director. Prior to OSO the defunct Office of
the Executive Director was responsible for coordinating SEC’s continuity efforts,
continuity of operations,42 and vital records management which is a component
of the COOP. The defunct Office of the Executive Director, with OIT’s
assistance, created the Continuity Support Center (CSC), which is a computer
system that designated vital records staff in SEC offices and divisions could
access and post key documents and vital records electronically. Though OSS’
Chief of Security Services says he has accessed the CSC, OSS has not
determined if it will be used to maintain the SEC’s vital records until a full
assessment of the vital records program has been performed.

42
  Vital records management is a component of continuity of operations according to FEMA. See Elements
of Viable Continuity Capability at http://www.fema.gov/about/org/ncp/coop/index.shtm. According to FEMA,
continuity of operations, as defined in the National Security Presidential Directive-51/Homeland Security
Presidential Directive-20 (NSPD-51/HSPD-20) and the National Continuity Policy Implementation Plan
(NCPIP), is an effort within individual executive departments and agencies to ensure that Primary Mission
Essential Functions (PMEF) continue to be performed during a wide range of emergencies, including
localized acts of nature, accidents and technological or attack-related emergencies.
SEC’s Records Management Practices                                                  September 30, 2012
Report No. 505

                                               Page 26
In prior years the defunct Office of the Executive Director oversaw Continuity
Task Force meetings that were held to keep vital records personnel abreast of
COOP matters and remind them to update their vital records. OIG reviewed a
copy of a Continuity Task Force meeting that was held on January 25, 2011.43
The agenda reminded staff that vital records listing should be updated
continuously and kept available electronically and in hard-copy.

OSS and ORMS Vital Records Roles. OSS’ Chief of Security Services and
ORMS management are working together to evaluate the SEC’s vital records
program. OSS’ Chief of Security Services informed us that his office had not yet
determined what constitutes a SEC vital record and a contractor the office hired
in June 2012, will assist them not only with COOP management, but will also
assess the SEC’s vital records management program. OIG determined that
without defining what vital records are, the SEC cannot ensure its vital records
are adequately protected, accessible and immediately usable.

Required Annual Review of SEC’s Vital Records Program. OIG’s review of
NARA’s 2010 Records Management Self-Assessment Report44 found that
Federal agencies are required to perform an annual review of their vital records
program,45 consistent with FCD 1, which states vital records program “must
include an annual review of the program to address new security issues, identify
problem areas, update information, and incorporate any additional vital records
generated by new agency programs or functions or by organization changes to
existing programs or function…”46 OSS could not provide us with support to
show that annual reviews of SEC’s vital records program were previously
performed.

Compliance with NARA Guidance and Federal Regulations. When OIG
asked OSS how it ensures the SEC complies with NARA guidance and Federal
regulations for vital records program, we were told that based on its initial review
of existing vital records program, “the SEC might not have vital records in
accordance with NARA guidance.”

36 C.F.R. § 1223.14 states that agencies must “appropriately inform all staff
about vital records.” Except for a training session SEC employees took on vital
records in 2010, OSS officials were unsure how SEC previously informed its staff

43
   In the past Continuity Task Force meetings were held to inform SEC offices and divisions about COOP
matters and to remind them of their responsibility to update their vital records listing.
44
   According to the report’s executive summary, “the goal of the self-assessment is to determine whether
federal agencies are compliant with statutory and regulatory records management requirements.” NARA,
2010 Records Management Self-Assessment Report, An Assessment of Records Management Programs in
the Federal Government, (Feb. 22, 2011), p.2.
45
   NARA, 2010 Records Management Self-Assessment Report, An Assessment of Records Management
Programs in the Federal Government, (Feb. 22, 2011), p.30.
46
   Federal Continuity Directive 1 (FCD 1), Federal Executive Branch National Continuity Program and
Requirements, (Feb. 2008), Annex I, p. I-3.
SEC’s Records Management Practices                                                September 30, 2012
Report No. 505

                                              Page 27
about vital records. We were also informed that the SEC has not established
retrieval procedures for vital records.

OSS will work with their contractor to validate COOP and vital records
requirements, establish retrieval procedures for vital records and ensure the vital
records and COOP program complies with NARA and Federal regulations.

Conclusion. SEC has not defined its vital records and does not review or
update vital records annually. As a result, SEC’s listing of vital records are not
complete or current. Further, the SEC has not definitively established how it will
protect and retrieve vital records in emergency situations. The SEC must ensure
it develops and fully supports a vital records management program that is
adequately tested, protected, accessible and available to support its mission.

Non-compliance with NARA’s guidance on vital records occurred because this
responsibility was transferred to OSS and ORMS and the predecessor (defunct
Office of the Executive Director) did not retain adequate records or
documentation regarding the SEC’s vital records program. As a result, there has
been confusion regarding who is responsible for reviewing NARA guidance and
ensuring the SEC’s vital records program complies with NARA guidance. If not
corrected, the conditions outlined in this finding could potentially prevent the SEC
from performing mission essential functions in emergency or other situations that
could cause disruptions in its normal operations.

       Recommendation 10:

       The Office of Support Operations should ensure the Office of Security
       Services, in coordination with the Office of Records Management
       Services, develops a vital records program that includes processes and
       procedures to establish and maintain the Securities and Exchange
       Commission’s vital records in accordance with applicable Federal
       regulations and the National Archives and Records Administration’s
       guidance on vital records management.

       Management Comments. OSO concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OSO concurred with this
       recommendation.

       Recommendation 11:

       The Office of Support Operations should ensure the Securities and
       Exchange Commission’s (SEC) procedures and processes for vital
       records management include, but are not limited to:

SEC’s Records Management Practices                                September 30, 2012
Report No. 505

                                     Page 28
                  1) Designating points-of-contact (POC) for offices or division that
                     have vital records;
                  2) Ensuring appropriate hardware, software and system
                     documentation are adequate to operate the systems and can
                     access SEC’s vital records in cases of emergencies;
                  3) Ensuring vital records information is updated throughout the
                     year and reviewed annually; and
                  4) Providing designated POCs with vital records requirements or
                     new information at least once a year.

         Management Comments. OSO concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OSO concurred with this
         recommendation.


Finding 9: SEC’s Records Management
Administrative Regulations, Retention Schedule,
and Handbook Are Outdated
         SEC’s records management administrative regulations,
         records retention schedule, and the Vital Records Handbook
         have not been revised in a number of years. Additionally,
         the administrative regulations refer to sample forms and
         processes that are no longer available or are no longer
         followed, respectively.

Specifically, SEC’s administrative regulations (SECR-7 series) related to records
management have not been revised dating as far back as May 1991.47 Further,
SEC’s records retention schedule has not been revised or updated since
September 1997. ORMS informed OIG that they are in the process of updating
the administrative regulations. We were also told that ORMS conducted a high
level review of the regulations and did not find any grossly incorrect information.
Moreover, regarding the SECR-7 series covering electronic records
management, OIT informed us that they are working with ORMS to update the
policies and procedures on electronic records.

47
   The SEC administrative regulations in the SECR-7 series that are discussed in this report are comprised
of the following five SECRs that are related to records management: SECR 7-1, Records Management
Program (September 29, 1996); SECR 7-2, Records Management, Creation, Maintenance and Use of
Records, Including Files (August 5, 1993); SECR 7-3, Disposition of Securities and Exchange Commission
Records (July 21, 1993); SECR 7-6, Electronic Records (May 23, 1991); and SECR 7-7, Records
Management, Vital Records (July 21, 1993).
SEC’s Records Management Practices                                                   September 30, 2012
Report No. 505

                                                Page 29
NARA does not provide specific guidance on when or how often Federal
agencies should update their administrative regulations, procedures, and policies
on records management. However, according to NARA’s 2010 Records
Management Self-Assessment Report “a third of the respondents…have not
updated their directive(s) in a number of years.” NARA further asserts that “this
is a deficiency in their records management programs. They are not accounting
for new records series, and they are not keeping up with records management
best practices.” Additionally, NARA stated that bulletins and related guidance on
records management are issued on an ongoing basis. NARA believes that
agencies need to incorporate pertinent portions of such guidance into their
directives and other issuances. 48 NARA’s 2011 Records Management Self-
Assessment Report described updating directives continues to be a problematic
area as it stated that there was “little change in the data….30 percent [of
respondents] said they have not updated their directive since FY 2006 or
earlier.”49

ORMS stated that while it agrees with NARA’s assessment, NARA should
provide clear guidance on how often or when directives should be updated.

OIG determined that ORMS’ outdated administrative records management
regulations and records retention schedule have caused confusion among SEC
staff. One management official stated that when she reviewed the SECR 7-2,
“Creation, Maintenance and Use of Records, Including Files,” August 5, 1993,
located on the SEC’s Intranet and clicked the hyperlinks for Figures 3-1 and 3-2,
the figures were not available. ORMS was unaware of this matter and said they
would look into it. Further, ORMS stated by the end of September 2012, the
office will issue updated administrative regulations on records management.

SEC’s Vital Records Handbook. OIG’s review of SEC’s Vital Records
Handbook (Handbook), dated August 30, 1996, revealed that much of the
information and procedures outlined in the Handbook are outdated. For example
the Handbook indicates that individuals responsible for their offices’ records
management must prepare the SEC Form 2883, as of September 30 each year
and submit it to the SEC records officer before November 1 of that year. It
further explains that Form 2883 is an annual status report of the vital records
program and discusses “the status of each individual office or region’s progress
in implementing the vital records management program or if implemented, that
inventories of records selected have been examined and are still valid.”
However, we found that the SEC Form 2883 is no longer in use and is not
available in SEC’s internal forms listing. In addition, our inquiry with ORMS’


48
   NARA, 2010 Records Management Self-Assessment Report, An Assessment of Records Management
Programs in the Federal Government, (Feb.22, 2011), p.15.
49
   Id., p.8.
SEC’s Records Management Practices                                         September 30, 2012
Report No. 505

                                          Page 30
former records officer who has been with the office since 1999 revealed that to
his recollection, no SEC office or division has sent a Form 2883 to ORMS.

OSS informed OIG they have not reviewed the Handbook. OSS’ and ORMS’
management indicated the Handbook will be reviewed as part of OSS’
contractor’s requirements to assess the vital records program.

Conclusion. To lessen confusion and ensure current and updated information is
provided to SEC staff, the records management SECR-7 series and the
Handbook should either be revised or rescinded. These items contain
terminology, processes, and assign responsibilities that are outdated and thus
need to be revisited. For example, terms such as automatic data processing,
automatic data processing equipment, electronic, information processing center
or mainframe are outdated, but can be found in some SECR-7 series and the
Handbook.

As discussed in the Presidential Memorandum – Managing Government
Records, (Nov. 28, 2011), current and relevant records management information
is needed to ensure the SEC’s records are properly managed. Outdated records
management and vital records information has resulted in SEC staff not
effectively managing records and has resulted in staff not fully complying with
governing Federal records management statutes and the requirements that are
established in the SECR-7 series.

       Recommendation 12:

       The Office of Support Operations should ensure the Office of
       Records Management Services (ORMS) revises the Securities and
       Exchange Commission’s (SEC) administrative regulations on
       records management and determines whether it will rescind the
       Vital Records Handbook. Once ORMS updates the SEC
       administrative regulations it should inform and train SEC
       employees on the updated records management administrative
       regulations.

       Management Comments. OSO concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OSO concurred with this
       recommendation.




SEC’s Records Management Practices                              September 30, 2012
Report No. 505

                                     Page 31
                                                                          Appendix I


                      Federal Agencies
             Records Management Responsibilities

Agency heads have specific legal requirements for records management which
include:

        Making and preserving records that contain adequate and proper
         documentation of the organization’s functions, policies, decisions,
         procedures, and essential transactions. The records must be
         designed to furnish the information needed to protect the legal and
         financial rights of the government and persons directly affected by
         the agency's activities;50
        Establishing and maintaining an active, continuous program for the
         economical and efficient management of the agency’s records;51
        Establishing safeguards against the removal or loss of records and
         making requirements and penalties known to agency officials and
         employees; and 52
        Notifying the Archivist of any actual, impending, or threatened unlawful
         destruction of records and assisting in their recovery.53

36 C.F.R. § 1220.32, dictates that federal agencies must create and maintain
authentic, reliable, and usable records and ensure that they remain so for the
length of their authorized retention period. A comprehensive records
management program provides policies and procedures for ensuring that:

             (a) Records documenting agency business are created or
                 captured;
             (b) Records are organized and maintained to facilitate
                 their use and ensure integrity throughout their
                 authorized retention periods;
             (c) Records are available when needed, where needed,
                 and in a usable format to conduct agency business;
             (d) Legal and regulatory requirements, relevant
                 standards, and agency policies are followed;
             (e) Records, regardless of format, are protected in a safe
                 and secure environment and removal or destruction is
                 carried out only as authorized in records schedules;
                 and


50
   44 U.S.C. § 3101.
51
   44 U.S.C. § 3102.
52
   44 U.S.C. § 3105.
53
   44 U.S.C. § 3106.
SEC’s Records Management Practices                                   September 30, 2012
Report No. 505

                                        Page 32
                                                                           Appendix I


               (f) Continuity of operations is supported by a vital
                   records program (see part 1223 of this subchapter).54

Further, 36 C.F.R. § 1220.34, discusses the following activities federal agencies
must perform for records management:

               (a) Assign records management responsibility to a person and
                   office with appropriate authority within the agency to
                   coordinate and oversee implementation of the agency
                   comprehensive records management program principles in §
                   1220.32;
               (b) Advise NARA and agency managers of the name(s) of the
                   individual(s) assigned operational responsibility for the
                   agency records management program;
               (c) Issue a directive(s) establishing program objectives,
                   responsibilities, and authorities for the creation,
                   maintenance, and disposition of agency records. Copies of
                   the directive(s) (including subsequent amendments or
                   supplements) must be disseminated throughout the agency,
                   as appropriate, and a copy must be sent to NARA;
               (d) Assign records management responsibilities in each
                   program (mission) and administrative area to ensure
                   incorporation of recordkeeping requirements and records
                   maintenance, storage, and disposition practices into agency
                   programs, processes, systems, and procedures;
               (e) Integrate records management and archival requirements
                   into the design, development, and implementation of
                   electronic information systems as specified in § 1236.12 of
                   this subchapter;
               (f) Provide guidance and training to all agency personnel on
                   their records management responsibilities, including
                   identification of Federal records, in all formats and media;
               (g) Develop records schedules for all records created and
                   received by the agency and obtain NARA approval of the
                   schedules prior to implementation, in accordance with 36
                   C.F.R. parts 1225 and 1226 of this subchapter;
               (h) Comply with applicable policies, procedures, and standards
                   relating to records management and recordkeeping
                   requirements issued by the Office of Management and
                   Budget, NARA, General Services Administration, or other
                   agencies, as appropriate;
               (i) Institute controls ensuring that all records, regardless of
                   format or medium, are properly organized, classified or

54
     36 C.F.R. § 1220.32.
SEC’s Records Management Practices                                   September 30, 2012
Report No. 505

                                         Page 33
                                                                    Appendix I


              indexed, and described, and made available for use by all
              appropriate agency staff; and
          (j) Conduct evaluations to measure the effectiveness of records
              management programs and practices, and to ensure that
              they comply with NARA regulations in this subchapter.




SEC’s Records Management Practices                             September 30, 2012
Report No. 505

                                     Page 34
                                                                     Appendix II


                              Abbreviations

             CFR        Code of Federal Regulations
             COOP       Continuity of Operations
             CSC        Continuity Services Center
             FCD        Federal Continuity Directive
             FEMA       Federal Emergency Management
                        Agency
             FOIA       Freedom of Information Act
             FRC        Federal Records Center
             GRS        General Records Schedules
             NARA       National Archives and Records
                        Administration
             NFC        Department of Agriculture’s National
                        Finance Center
             OCOO       Office of the Chief Operating Officer
             OFIS       Office of Filings and Information
                        Services
             OHR        Office of Human Resources
             OIG        Office of Inspector General
             OIT        Office of Information Technology
             ORMS       Office of Records Management
                        Services
             OSO        Office of Support Operations
             OSS        Office of Security Services
             POC        Point-of-Contact
             SEC or     U.S. Securities and Exchange
             Commission Commission
             SECR       SEC Administrative Regulation
             SF         Standard Form
             SOP        Standard Operating Policy




SEC’s Records Management Practices                              September 30, 2012
Report No. 505
                                     Page 35
                                                                    Appendix III


                      Scope and Methodology

As part of our annual audit plan the OIG conducted an audit of the SEC’s records
management program.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The scope of our audit covered calendar years 2008 to 2010 and
January 2011 to September 2011. Our initial fieldwork was conducted from late
October 2011 to February 2012. Our audit focused on SEC’s records
management program and practices and determining whether its records
management program enables the agency to properly handle records in
accordance with applicable federal statute and guidance. In addition, we
reviewed records management procedures and practices that SEC offices and
divisions follow to assess whether they are in compliance with the SEC’s
administrative regulations and federal laws on records management.

Due to a staffing shortage, the audit was temporarily suspended from March to
early July 2012. The report’s findings, conclusions and recommendations for this
report were reconfirmed from mid-July to August 2012.

Methodology. To meet the objectives of assessing whether ORMS established a
viable records management program that ensures permanent SEC records are
appropriately maintained and preserved in accordance with applicable federal
statutes and regulations, we obtained and reviewed applicable records
management federal regulations and examined SEC’s records management
program and practices to determine whether the Commission complies with the
federal statue and regulations. OIG met with ORMS management and its staff to
discuss SEC’s records management program and compliance with federal laws
on records management. We inquired NARA officials about their assessment of
SEC’s records management program. Further, we reviewed NARA’s 2010 and
2011 records management self-assessment reports on records management
programs in the federal government. The self-assessment reports scored federal
agencies on their compliance with federal statue, including NARA guidance, on
records management. We reviewed the results of SEC’s records management
program that were included in the self-assessment reports. We also met with
records management POCs as well as other management officials who are
responsible for records management program in SEC offices and divisions to

SEC’s Records Management Practices                              September 30, 2012
Report No. 505
                                     Page 36
                                                                      Appendix III


assess whether their practices and procedures complied with federal statute on
records management. Also, we contacted three federal agencies to learn about
their records management program and to determine how they comply with
records management federal regulations. We also developed and administered
a survey to directors, business managers, administrative officers in SEC offices
and divisions regarding their records management program and knowledge
about federal statue on records management. OIG reviewed and analyzed the
results of the survey.

To achieve the objective of examining whether ORMS adheres to applicable
federal statutes and regulations regarding the retention, disposal, transfer, and
recovery of SEC records, we reviewed a sample of records requests that were
processed by ORMS. We examined SEC offices and divisions records
management practices for retaining and disposing of records and their process
for reviewing their records retention schedule. We also inquired ORMS
management, its staff, and SEC offices and divisions about the procedures in
place to ensure SEC complies with federal statutes and regulations regarding the
retention, disposal, transfer and recovery of SEC records. Further, we also
examined SEC’s records management practices to determine if they are in
compliance with SEC’s administrative regulations on records management.
Some of the questions in the survey we administered to directors, business
managers, and administrative officers addressed matters related to their handling
of records they created or received from external sources.

Finally, we identified areas which improvement could be made, documented the
results of our audit work and facilitated implementation of recommendations
noted in the report.

Internal Controls. For this audit, we based our assessment of ORMS’ internal
controls that were significant to the audit objectives on the Committee of
Sponsoring Organizations of the Treadway Commission framework, such as
control environment, control activities, information and communication, and
monitoring. Among the internal controls that we assessed were ORMS’ controls
related to processing records requests, management’s monitoring process over
records requests that could not be processed within 20 days, and ORMS’ policies
and procedures to meet its objectives.

Judgmental and Statistical Sampling. ORMS provided us with a list of all
records requests it received from January 1, 2008 to September 30, 2011.
ORMS’ universe of records requests totaled 8,015. We used the EZ Quant
Statistical Analysis Audit tool to generate a statistical sample of 89 records
requests. The sample was designed to project rates of occurrence with 90
percent confidence that the point estimate is within ± 5 percent of the audit
universe.


SEC’s Records Management Practices                                September 30, 2012
Report No. 505
                                     Page 37
                                                                      Appendix III


We also judgmentally selected additional 16 records requests from the list to
ensure that our sample included the various types of records requests such as
records requested by external parties. Because we used both judgmental and
statistical sampling techniques, we did not try to project the results of records
requests reviewed in our sample to the entire population.

Prior Audit Coverage. In 1997, the OIG performed an audit of the SEC’s
automation of records management to determine if the Commission has
established sufficient policies and procedures for electronic records and to
identify possible improvements to electronic records management.

      Automated Records Management, Report No. 262, September 29,
       1997.

The report included six recommendations. Three recommendations were issued
to the former Office of Filings and Information Services (OFIS) which included
records management function and the remaining three recommendations were
issued to OIT. Both OFIS and OIT concurred with the recommendations that
were issued to them. For the recommendations that were issued to OFIS, OIG
asked ORMS management on the status of the recommendations. ORMS
management stated that since ORMS Archivist’s arrival at the SEC, they enacted
processes that were responsive to all of the recommendations directed to OFIS.
Based on supporting documents ORMS management provided, OIG determined
that the recommendations issued to OFIS were addressed and closed. Further,
OIG determined that OIT addressed the recommendations issued to them, and
these recommendations were also closed.




SEC’s Records Management Practices                                September 30, 2012
Report No. 505
                                     Page 38
                                                                        Appendix IV


                                     Criteria

36 C.F.R. § 1220 Federal Records: General, Subpart A, General Provisions
and Subpart B, Agency Records Management Program Responsibilities.
Discusses, among other things, who is responsible for records management,
NARA’s responsibilities for records management such as issuing regulations on
records management, establishing standards for the retention of records having
continuing value, etc., and federal agencies’ records management
responsibilities and what federal agencies must do to carry out their records
management responsibilities.

44 U.S.C. § 2901 - Definitions. Provides definitions for terms used for records
management, including records disposition.

44 U.S.C. § 31- Records Management by Federal Agencies. States general
duties of records management by agency heads, establishment of program of
records management, and transfer of records to records center, etc.

44 U.S.C. § 33 - Disposal of Records. Discusses, among other things,
definition of records, regulations covering lists of records for disposal and
procedure for disposal.

Federal Continuity Directive 1 (FCD 1), Federal Executive Branch National
Continuity Program and Requirements. Discusses a requirement for federal
agencies to have a vital records program that must include an annual review of
the program to address new security issues, identify problem areas, update
information, and incorporate any additional vital records generated by new
agency programs or functions or by organization changes to existing programs or
function.

SECR 7-1, SEC Administrative Regulation, Records Management Program
(September 29, 1996). Lists SEC’s records management program requirements
and objectives and assigns responsibilities for records management.

SECR 7-2, SEC Administrative Regulation, Records Management, Creation,
Maintenance and Use of Records, Including Files (August 5, 1993).
Discusses SEC’s procedures and policies for records management.

SECR7-3, SEC Administrative Regulation, Disposition of Securities and
Exchange Commission Records (July 21, 1993). Prescribes policies,
responsibilities, program objectives, and procedures for disposing, retiring or
transferring records. Applies to personnel who create or accumulate records
agency-wide.


SEC’s Records Management Practices                                 September 30, 2012
Report No. 505
                                      Page 39
                                                                      Appendix IV


SECR7-6, SEC Administrative Regulation, Electronic Records
(May 23, 1991). Prescribes policies, responsibilities, and procedures for
establishing, testing, and implementing electronic recordkeeping as alternatives
to or in conjunction with paper records subject to SECR 7-2. Provides guidance
to ensure permanent preservation of archival information which is in machine-
readable form.

SECR7-7, SEC Administrative Regulation, Records Management, Vital
Records (July 21, 1993). Establishes SEC’s vital records program and provides
guidance and instructions for implementing the program. Applies to agency-wide
staff and activities.

ORMS’ Standard Operating Policy. The SOP identifies ORMS’ policies and
procedures for processing records requests and it identifies the offices’
responsibilities.

OMB Circular A-123, Management’s Responsibility for Internal Control,
(December 21, 2004) (Revised). Establishes that management has a
fundamental responsibility to develop and maintain effective internal control.




SEC’s Records Management Practices                                September 30, 2012
Report No. 505
                                     Page 40
                                                                      Appendix V


                    List of Recommendations

Recommendation 1:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) periodically conducts agency-wide staff
assistance visits of the Securities and Exchange Commission offices’ and
divisions’ records management programs in accordance with SECR 7-1,
Securities and Exchange Commission’s Records Management Program. To
assist in this process, ORMS should develop a plan that identifies the timeline for
the conduct and scope of the staff assistance visits.

Recommendation 2:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) develops a records management training
program that covers training sessions for all Securities and Exchange
Commission employees. ORMS should determine the audience, scope,
material, and training schedule. Training factors ORMS should consider include
defining records, how to treat records in accordance with Federal regulations and
records retention schedule, records management responsibilities for employees
and designated points-of-contact.

Recommendation 3:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) develops internal controls that assure ORMS
staff are provided oversight and adhere to the office’s standard operating policy.

Recommendation 4:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) works with the Securities and Exchange
Commission (SEC) offices and divisions to ensure they all have current records
retention schedules that encompass the office’s or division’s records.
Accordingly, ORMS should determine whether it should update the SEC’s
comprehensive records retention schedule to ensure it is reflective of current
SEC offices’ and divisions’ records.




SEC’s Records Management Practices                                September 30, 2012
Report No. 505
                                     Page 41
                                                                     Appendix V


Recommendation 5:

The Office of Support Operations should ensure the Office of Records
Management Services establishes records management procedures that enable
the offices and divisions to properly manage their records in accordance with
applicable federal regulations and Securities and Exchange Commission’s
administrative regulations.

Recommendation 6:

The Office of Support Operations should ensure the Office of Records
Management Services establishes a definitive plan and milestones to review the
remaining backlog of boxes that are being maintained at the Federal Records
Center and ensures proper disposition of the records that are contained in the
boxes.

Recommendation 7:

The Office of Support Operations should ensure the Office of Records
Management Services provides guidance to records management points-of-
contact and requires, at least annually, they determine whether there are any
records requiring disposal for their individual offices and divisions.

Recommendation 8:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) develops an action plan to address the 10-year
backlog of records that the Federal Records Center (FRC) identified as eligible
for destruction. In developing an action plan, ORMS should determine a timeline
to address the backlog of records, a timeline to conduct a full inventory of the
Security and Exchange Commission’s records, and how ORMS will address the
indexing system for archived records.

Recommendation 9:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) issues a directive, requiring all Securities and
Exchange Commission offices and divisions to designate a point-of-contact
(POC) for records management matters and inform ORMS of their designated
POC. ORMS should maintain a list of POCs that is verified annually.




SEC’s Records Management Practices                              September 30, 2012
Report No. 505
                                     Page 42
                                                                    Appendix V


Recommendation 10:

The Office of Support Operations should ensure the Office of Security Services,
in coordination with the Office of Records Management Services, develops a vital
records program that includes processes and procedures to establish and
maintain the Securities and Exchange Commission’s vital records in accordance
with applicable Federal regulations and the National Archives and Records
Administration’s guidance on vital records management.

Recommendation 11:

The Office of Support Operations should ensure the Securities and Exchange
Commission’s (SEC) procedures and processes for vital records management
include, but are not limited to:

       1) Designating points-of-contact (POC) for offices or division that have
          vital records;
       2) Ensuring appropriate hardware, software and system documentation
          are adequate to operate the systems and can access SEC’s vital
          records in cases of emergencies;
       3) Ensuring vital records information is updated throughout the year and
          reviewed annually; and
       4) Providing designated POCs with vital records requirements or new
          information at least once a year.

Recommendation 12:

The Office of Support Operations should ensure the Office of Records
Management Services (ORMS) revises the Securities and Exchange
Commission’s (SEC) administrative regulations on records management
and determines whether it will rescind the Vital Records Handbook. Once
ORMS updates the SEC administrative regulations it should inform and
train SEC employees on the updated records management administrative
regulations.




SEC’s Records Management Practices                              September 30, 2012
Report No. 505
                                     Page 43
                                                                       Appendix VI


                                 Definitions

1. Disposing of Records - 44 U.S.C. § 2901, defines disposing of records as
   any activity related to: (a) the destruction of temporary records that are no
   longer necessary for the conduct of business; (b) transferring records to the
   Federal agency storage facility such as FRC or a third-party storage; (c)
   transferring records determined to have sufficient historical or other value
   warranting continued preservation to NARA; or (d) the transfer of records
   from one Federal agency to any other Federal agency.

2. General Records Schedule - According to NARA, general records schedule
   is issued by the Archivist of the United States to provide disposition
   authorization for records common to several or all agencies of the Federal
   Government. They include records relating to civilian personnel, fiscal
   accounting, procurement, communications, printing, and other common
   functions, and certain non-textual records. They also include records relating
   to temporary commissions, boards, councils and committees. Because these
   schedules are designed to cover records common to several agencies, many
   record descriptions are general.

3. Records - 44 U.S.C. § 3301 defines records as all books, papers, maps,
   photographs, machine readable materials, or other documentary materials,
   regardless of physical form or characteristics, made or received by an agency
   of the United States government under federal law or in connection with the
   transaction of public business and preserved or appropriate for preservation
   by that agency or its legitimate successor as evidence of the organization,
   functions, policies, decisions, procedures, operations, or other activities of the
   government or because of the informational value of data in them.

4. Records Retention Schedule - 36 C.F.R. § 1220.18 defines records
   schedule as any of the following:

       (1) SF 115, Request for Records Disposition Authority, which were
           approved by NARA to authorize the disposition of Federal records;
       (2) GRS issued by NARA; or
       (3) A published agency manual or directive containing the records
           descriptions and disposition instructions approved by NARA on one or
           more SF 115s or issued by NARA in the GRS.

5. Scheduled Records - Federal records whose final disposition has been
   approved by NARA on a SF 115, Request for Records Disposition Authority,
   GRS, or in a federal agency’s manual or directive containing the records
   descriptions and disposition instructions approved by NARA.

SEC’s Records Management Practices                                 September 30, 2012
Report No. 505
                                      Page 44
                                                                      Appendix VI


6. Temporary Records - 36 C.F.R. § 1220.18 defines temporary records as any
   Federal record that has been determined by the Archivist of the United States
   to have insufficient value (on the basis of current standards) to warrant its
   preservation by [NARA]. This determination may take the form of: (1) records
   designated as disposable in an agency records disposition schedule
   approved by NARA (SF 115, Request for Records Disposition Authority); or
   (2) records designated as disposable in GRS.

7. Unscheduled Records - Federal records whose final disposition has not
   been approved by NARA on a SF 115, Request for Records Disposition
   Authority or records designated as disposable in GRS. Such records must be
   treated as permanent until a final disposition is approved.

8. Vital Records - According to NARA, vital records are “essential agency
   records that are needed to meet operational responsibilities under national
   security emergencies or other emergency conditions (emergency operating
   records) or to protect the legal and financial rights of the Government and
   those affected by Government activities (legal and financial rights records).”
   Additionally NARA defines vital records program as “the policies, plans, and
   procedures developed and implemented and the resources needed to
   identify, use, and protect the essential records needed to meet operational
   responsibilities under national security emergencies or other emergency
   conditions or to protect the Government’s rights or those of its citizens.”




SEC’s Records Management Practices                               September 30, 2012
Report No. 505
                                     Page 45
                                                  Appendix VII


                      Management Comments




SEC’s Records Management Practices             September 30, 2012
Report No. 505
                                     Page 46
                                                  Appendix VII




SEC’s Records Management Practices             September 30, 2012
Report No. 505
                                     Page 47
                                                  Appendix VII




SEC’s Records Management Practices             September 30, 2012
Report No. 505
                                     Page 48
                                                  Appendix VII




SEC’s Records Management Practices             September 30, 2012
Report No. 505
                                     Page 49
                                                                    Appendix VIII


    OIG’s Response to Management’s Comments

We are pleased OSO concurred with all 12 recommendations in our report and
are encouraged that the office will take the steps needed to fully implement the
recommendations. We believe that the full implementation of these
recommendations will serve to strengthen the SEC’s records management
practices.

However, OIG disagrees with certain statements in OSO’s overall response to
this report. In particular, OSO’s statement that the scope of our audit and
recommendations highlight issues that existed prior to 2008 is not factual. The
scope of our audit was from January 1, 2008 to September 30, 2011, and our
audit results are based on appropriate, factual evidence and OIG observations
that were made during the scope of the audit. The administrative regulations that
OIG applied to some of our findings and recommendations are based on the five
SECRs that are specific to records management, and were issued by the SEC
from May 1991 to September 1996. Consequently, OIG recommended and OSO
agreed to revise these SECRs.

Further, while OSO’s statement the office conducted 383 records management
related meetings encompassing staff of 5 SEC divisions and 17 offices may be
true, OSO did not provide OIG with any evidence the office conducted staff
assistance visits from 2008 to 2011 of the SEC’s 36 offices, divisions, and
regional offices, in accordance with SECR 7-1, Securities and Exchange
Commission’s Records Management Program, which states the records officer
should schedule and make staff assistance visits to each SEC office of record at
least every 18 months.

Additionally, though ORMS provided records management training to a large
number of SEC staff, it has not provided records management training to all SEC
staff in compliance with 36 C.F.R. § 1220.34(f), which indicates Federal agencies
must “provide guidance and training to all agency personnel on their records
management responsibilities, including the identification of Federal records…”




SEC’s Records Management Practices                               September 30, 2012
Report No. 505
                                     Page 50
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, or mismanagement at the SEC,
      contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
